Georgia State University Research Foundation, Inc.
                30 Courtland Street
              Atlanta, Georgia 30303
    National Science Foundation Award Number
                   IBN-0349042

            Audit of Financial Schedules
                       and
           Independent Auditors’ Reports
 For the Period July 1, 2003 to September 30, 2004




                                  CONRAD AND ASSOCIATES, L.L.P.
                                        Certified Public Accountants
                                          1100 Main Street, Suite C
                                             Irvine, California 92614
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                     Georgia State University Research Foundation, Inc.
                                                    30 Courtland Street
                                                   Atlanta, Georgia 30303




                                                               Table of Contents

                                                                                                                                                     Page

Executive Summary:
  Background .....................................................................................................................................     1
  Audit Objectives, Scope, and Methodology ....................................................................................                        2
  Summary of Audit Results................................................................................................................             3
  Summary of Recommendations.......................................................................................................                    5
  Summary of Auditee’s Response to Audit Results ..........................................................................                            5
  Follow-up of Prior Audit Findings .....................................................................................................              5
  Exit Conference................................................................................................................................      6

Findings and Recommendations:
   Independent Auditors’ Report on Compliance and Other Matters
   and on Internal Control Over Financial Reporting Based on an Audit
   Performed in Accordance with Government Auditing Standards.....................................................                                     7

Financial Schedules:
   Independent Auditors’ Report on Financial Schedules ...................................................................                            18
   Schedule A    Schedule of Award Costs .......................................................................................                      20
   Schedule B    Schedule of Questioned Costs ..............................................................................                          21
   Schedule C    Summary Schedules of Awards Audited and Audit Results....................................                                            27
   Notes to Financial Schedules ..........................................................................................................            28

Appendix A - Awardee’s Comments to Report
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

BACKGROUND

In 2003, under the Science and Technology Centers (STC): Integrative Partnerships program,1 NSF
awarded a cooperative agreement to the Georgia State University (GSU) Research Foundation, Inc.,2 for
the operation of the Center for Behavioral Neuroscience (the Center) at Georgia State University in
Atlanta, Georgia. The Center’s overall mission is to define the interaction of brain processes and complex
behaviors, and create a cadre of interdisciplinary investigators focused on behavioral neuroscience. To
accomplish this mission, the Center brings together the research and educational expertise of eight
academic “partner” institutions. This diverse group of behavioral biologists, psychologists, neuroscientists,
molecular biologists and engineers from various Atlanta universities has access to core facilities equipped
with the latest technologies to explore cutting-edge issues in behavioral neuroscience. The Center’s
major goals include refining and extending current methods for addressing problems in behavioral
neuroscience, including imaging and computation, and developing novel technologies and animal models
for understanding the brain’s molecular mechanisms of learning and memory that underlie social
behavior.

NSF originally awarded the cooperative agreement for the Center’s establishment and support to Emory
University, in 1999. The GSU Research Foundation participated in the Center as a subawardee, partner
institution. In accordance with its STC program guidelines, NSF funded the Center for five years (in
annual increments) with a potential duration of ten years. However, in late 2002, the Center Director and
Principal Investigator (PI) left Emory University and the Center. Following this event, a former co-PI on
the award was appointed as Center Director and Principal Investigator. Subsequently, in July 2003, NSF
transferred the award from Emory University to GSU, the new Director’s home institution and one of the
Center’s eight partner institutions. To accomplish the transfer, NSF terminated the award with Emory
University and entered into a new cooperative agreement with GSU Research Foundation, award number
IBN-0349042, for the remainder of the initial five-year award period. Emory University has continued its
involvement with the Center as a subawardee, participating partner.

NSF Award IBN-0349042 grants the GSU Research Foundation financial support of $8,949,568 to
operate the Center for the period July 1, 2003 through October 31, 2004. Per the cooperative agreement,
GSU is required to provide cost sharing in the amount of $4,680,264 over the award period.

The NSF award is administered and operated by personnel at the Center for Behavioral Neuroscience
located on the campus of GSU. The Center operates within GSU’s Department of Biology, which is
ultimately within the College of Arts and Science.

1
  The NSF Office of Integrative Activities established the Science and Technology Centers (STC):
Integrative Partnerships program in 1987, to enable innovative research and education projects of
national importance that require a Center mode of support to achieve the research, education, and
knowledge transfer goals shared by the separate partners.
2
  The State of Georgia established the Georgia State University Research Foundation, Inc., to contribute
to the scientific, literary, educational, and charitable functions of Georgia State University in securing gifts,
contributions and grants. The Research Foundation subawards most of its research grants to GSU,
which then assumes responsibility for the fiscal administration of the grants.
AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

At the request of the NSF Office of Inspector General (OIG), Conrad and Associates, L.L.P, conducted an
audit of NSF Cooperative Agreement IBN-0349042, granted to the GSU Research Foundation to fund the
Science and Technology Center for Behavioral Neuroscience, for the period July 1, 2003, to September
30, 2004. The audit objectives were to:

    1. Determine whether the Schedule of Award Costs of GSU present fairly, in all material respects,
       the costs claimed on the Federal Cash Transaction Reports (FCTR) - Federal Share of Net
       Disbursements in conformity with NSF OIG’s Financial Audit Guide, and the terms and conditions
       of the NSF award.

    2. Identify matters concerning instances of noncompliance with laws, regulations, and the provisions
       of the award agreement pertaining to NSF awards, and weaknesses in GSU’s internal control
       over financial reporting that could have a direct and material effect on the Schedule of Award
       Costs and GSU’s ability to properly administer, account for, and monitor its NSF award.

To accomplish the objectives of the audit, we:

    •   Prepared a survey and internal control audit-planning document for OIG review and approval.
        The document included the proposed audit program and sampling methodology for performing
        the audit survey, gaining an understanding of the grantee’s policies and procedures and financial
        systems for administering its NSF awards, identifying risks in the grantee’s operations for
        effectively administering its NSF awards, and testing the grantee’s significant internal controls to
        determine whether those controls are operating effectively to mitigate the identified risk.

    •   Prepared a survey and internal control assessment report for OIG review and approval. The
        assessment report included a summary of the results of the on-site audit survey and testing of
        significant internal controls.

    •   Prepared a substantive audit testing planning document for OIG review and approval. The
        document included the proposed audit program including sections on tests of compliance with
        applicable laws and regulations, and substantive testing procedures to determine whether costs
        charged to the NSF award(s) by the awardee are allowable, allocable, and reasonable in
        accordance with the applicable Federal cost principles and award terms and conditions.

    •   Prepared Notification of Findings (NOFs) based on the results of audit fieldwork. The NOFs
        included detailed information on each finding identified.

Our audit was conducted in accordance with auditing standards generally accepted in the United States
of America, Government Auditing Standards issued by the Comptroller General of the United States of
America. This audit of the aforementioned award uses non-statistical sampling to test the costs claimed
by GSU and to test for compliance with Federal and NSF award requirements.
SUMMARY OF AUDIT RESULTS

Our audit found that GSU was generally able to account for NSF funds. However, we identified a
significant weakness in GSU’s monitoring of subawardee costs and cost sharing that resulted in $404,211
of questioned costs (See Note B-4: Subaward Costs). We also noted other areas where GSU can
improve, including maintaining proper documentation of payroll and other direct expenses, as well as cost
sharing.


                                                                     Costs
                                                    Claimed         Selected      Questioned
           NSF Award No.       Award Budget          Costs         for Review       Costs
           IBN-0349042         $ 8,949,568        $ 5,915,793     $ 2,441,337     $ 174,846

           Cost Sharing           4,680,264         4,627,502       2,090,367        284,938
                       Total   $ 13,629,832       $10,543,295     $ 4,531,704     $ 459,784


Our audit of this award disclosed questioned costs of $459,784 in the following cost categories: salaries
and wages, fringe benefits, travel, materials and supplies and “other” (venture grants), consulting,
subawards, indirect, and GSU and subawardee cost sharing. Questioned costs are (1) costs for which
there is documentation that the recorded costs were expended in violation of the law, regulations, or
specific conditions of the award; (2) costs that require additional support by the awardee; or (3) costs that
require interpretation of allowability by the NSF.

We noted compliance deficiencies and internal control weaknesses that could have a significant impact
on GSU’s ability to record, process, summarize, and report financial data, and effectively and efficiently
administer the funds in a manner that is consistent with NSF and other Federal laws and regulations. If
GSU fails to address these compliance and control weaknesses, similar problems may occur on other
existing and/or future NSF awards granted to GSU.

The following is a brief description of the compliance and internal control findings that resulted from our
audit. For a complete discussion of these findings, refer to the Independent Auditors’ Report on
Compliance and Other Matters and on Internal Controls over Financial Reporting Based on an Audit
Performed in Accordance with Government Auditing Standards. (See page 7 of this report.)

Inadequate Subawardee Monitoring

GSU needs to establish a risk-based monitoring program to ensure that costs invoiced or claimed and
certified as cost sharing by the subawardees of the Center are accurate, allowable, allocable, and
properly documented per NSF regulations and OMB Circulars. Approximately xxxxxxxxxxx or xx percent
of the cost sharing expenditures claimed and certified by GSU were contributed by subawardees.
Additional subaward costs directly funded by NSF totaled xxxxxxxx or xx percent of the total costs
claimed. However, for cost sharing contributions, the Center relied only on the subawardees’ annual
certifications of the amounts claimed, without requesting or maintaining additional documentation to prove
the accuracy or validity of the claimed amounts. For NSF-funded subaward costs, the Center only
reviewed the costs to ensure that the amounts invoiced did not exceed the approved budget. The Center
did not review detailed ledgers or other documentation to ensure that the costs were actually incurred and
benefited the NSF award.

As a result, we questioned $271,376 of subawardees’ cost share expenditures and $132,835 of subaward
costs funded by NSF for which neither the Center nor the subawardee could provide adequate
documentation to support the costs claimed.
Other Compliance and Internal Control Weaknesses

Inadequate Documentation

Payroll Expense – Federal regulations and NSF award terms and conditions require that awardees
maintain documentation supporting transactions. However, GSU was not always able to provide the
required documents, or the documents provided were inadequate to support the charges.

         Direct Costs – For 17 payroll transactions out of a sample xxxx valued xxxxxxxxxx, GSU could
         not provide adequate documentation to substantiate payroll charges. As a result, we questioned
         $15,493 in salaries and $11,905 in associated fringe benefits and indirect costs.

         Cost Sharing – We also questioned $3,336 in salary costs for 2 payroll transactions out of a
         sample of xx payroll and other direct cost transactions valued at xxxxxxxx that GSU claimed as
         cost sharing. In one transaction, the Center was improperly charged for work done on a different
         grant. For the other transaction, GSU could not provide a certified Personnel Effort Report, and
         the associated Personnel Action Form indicated a termination date prior to the date of the
         transaction.

         Payroll Expense Internal Controls - Additionally, we noted 51 direct payroll cost transactions
         and 6 cost sharing payroll transactions for which GSU was unable to provide Personnel Action
         Forms that reflect the employees’ approved estimated work effort for the Center. Further, we
         noted that at certain high-volume times, in lieu of approved Personnel Action Forms, GSU
         provided the Center with lists of summer faculty and graduate assistants changes, contrary to
         GSU policy. Although many of the lists included signatures authorizing the changes, we identified
         33 transactions involving payment for employees on these lists for whom GSU did not have
         proper authorizations and approvals. We did not question these costs because certified
         Personnel Effort Reports indicated work was completed which benefited the Center.
         Nevertheless, the lack of proper supporting documents indicates that GSU did not take adequate
         care in maintaining required documentation, and did not always follow its policies and
         procedures.

Non-payroll Direct Expenses and Cost Sharing – Similar to payroll expenses, GSU was not always
able to provide documentation substantiating that non-payroll and cost sharing charges had been
properly authorized and incurred in support of the NSF award.

         Travel – For one travel transaction, out of a sample of eight, GSU was unable to provide
         documentation to substantiate that international travel expenses were related to the NSF award,
         or that the travel was properly approved. As a result, we questioned $546 in travel and indirect
         costs.

         Other Direct Costs – For 1 material and supply transaction, out of a sample of xx valued at
         xxxxxxxx, and 1 venture grant3 (“Other”) transaction out of a sample of xx, valued at xxxxxxxx,
         GSU was unable to provide documentation that purchases were properly authorized, the supplies
         were received, or that charges were incurred on behalf of the Center or venture grant. As a
         result, we questioned a total of $2,418 in material and supply costs, and $500 in venture grant
         expenses, as well as $1,328 for the associated indirect costs.


3
 Venture grants are small, collaborative projects, funded by the Center at $30,000 or less, that are initiated by
Center participants whose leadership is at a level below the Center Director.
        Consulting Costs – We noted one instance where GSU approved an invoice for consulting
        services for payment, but was unable to provide the contract for those services to demonstrate
        that the costs were reasonable and incurred on behalf of the Center. As a result, we questioned
        $9,821 in consulting and associated indirect costs.

        Cost Sharing – For 2 material and supply transactions, out of the sample of xx payroll and other
        direct cost transactions valued at xxxxxxxxxx that GSU claimed as cost sharing, GSU was unable
        to provide documentation that material and supply charges transferred to the Center from another
        project had been properly transferred and authorized as costs incurred for the benefit of the
        Center. As a result, we questioned $10,225 in material and supply costs.

Transfer of Award – Prior to the transfer of the award from Emory University to GSU, GSU and other
subawardees incurred expenses in the amount of xxxxxxxxx, but charged these expenses to the new,
GSU award. We did not question these costs because they were clearly incurred on behalf of the Center.
Nevertheless, because these costs were incurred more than 90 days prior to the date of GSU’s award,
NSF grant regulations required GSU to formally request approval to claim these costs. This approval was
not obtained because GSU did not have formal procedures in place that required compliance with the
NSF approval requirements for pre-award costs.

SUMMARY OF RECOMMENDATIONS

To address the potential internal control weaknesses, we recommend that the Directors of NSF’s Division
of Acquisition and Cost Support (DACS) and the Division of Grants and Agreements (DGA) instruct
Georgia State University to (1) develop and implement written policies and procedures to assess and
document each subawardee’s risk of claiming non-allocable or non-allowable costs, including cost
sharing expenditures; based on these risk assessments, perform periodic reviews of each subawardee’s
invoices to ensure costs claimed are allowable, allocable, and properly documented in accordance with
NSF regulations and applicable OMB Circulars; and review cost sharing expenditures claimed by
subawardees for allowability and allocability prior to the inclusion of the amounts in to GSU’s annual cost
sharing certification to NSF; (2) review and adhere to its payroll policies and procedures and ensure that
all required documentation is properly filed and maintained for all employees charging salaries to the NSF
award; (3) review and adhere to its policies and procedures to ensure that all required documentation is
properly filed and maintained for all expenses and cost sharing charged to the NSF award; (4) and
develop and implement written policies and procedures to ensure that expenses incurred more than 90
days in advance of any NSF award are properly approved in accordance with NSF’s pre-award
regulations.

SUMMARY OF AUDITEE’S RESPONSE TO AUDIT RESULTS

GSU did not concur with the first finding and recommendation although they agreed to consider the
recommendation for future implementation of a more detailed risk-based system for monitoring
subawardees.   In addition, GSU partially concurred with the remaining three findings and
recommendations and submitted additional documentation to support its position.

See Appendix section of this report for a complete copy of Georgia State University’s response to the
recommendations.
FOLLOW-UP OF PRIOR AUDIT FINDINGS

Since the inception of the grant award, the Center has never been audited by NSF or as a major program
in the OMB A-133 Single Audit Report. The Center’s expenditures are included in GSU’s single audit
report and are clustered as part of GSU’s Research and Development Grants major program; however, a
specific financial or compliance review of the Center’s expenditures had not been performed prior to this
audit.

EXIT CONFERENCE

We conducted an exit conference on July 1, 2005, with GSU at the Student Center Building, 44 Courtland
Street, Atlanta, Georgia 30303. We discussed with GSU and Center management our findings and
recommendations, as well as other observations contained in this report. The Center/GSU was informed
that the preliminary findings and recommendations were subject to final review by NSF and that the report
may include additional findings and recommendations and/or omit certain items discussed.

Representing GSU and the Center were:

        Name                            Title

        xxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Representing Conrad and Associates, L.L.P. was:

        Name                            Title

        xxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

     INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS AND ON
    INTERNAL CONTROL OVER FINANCIAL REPORTING BASED ON AN AUDIT PERFORMED
              IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

We have audited the Schedule of Award Costs as presented in Schedule A, which summarizes the
financial reports submitted by Georgia State University Research Foundation, Inc. (GSU) to the National
Science Foundation (NSF) for the awards listed below and have issued our report thereon dated July 1,
2005.

                Award Number                        Award Period                      Audit Period

                IBN-0349042                      07/01/03 - 10/31/04               07/01/03 – 09/30/04

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States of America, and the National Science Foundation Audit
Guide (November 2003).

                                 COMPLIANCE AND OTHER MATTERS

Compliance with applicable Federal laws, regulations, and the NSF award terms and conditions is the
responsibility of GSU’s management. As part of obtaining reasonable assurance about whether the
financial schedules are free of material misstatement, we performed tests of GSU’s compliance with
certain provisions of laws, regulations, and the NSF award terms and conditions, noncompliance with
which could have a direct and material effect on financial schedule amounts. However, providing an
opinion on compliance with those provisions was not an objective of our audit and, accordingly, we do not
express such an opinion.

The results of our tests disclosed instances of noncompliance described below that are required to be
reported under Government Auditing Standards and the National Science Foundation Audit Guide. We
considered these instances of noncompliance in forming our opinion on whether the Schedule of Award
Costs (Schedule A) presented fairly in all material respects, in conformity with National Science
Foundation policies and procedures, and determined this report does not affect our report dated July 1,
2005, on the financial schedule.

                        INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of GSU is responsible for establishing and maintaining internal control. In fulfilling this
responsibility, estimates and judgments made by management are required to assess the expected
benefits and related costs of internal control policies and procedures. The objectives of internal control
are to provide management with reasonable, but not absolute, assurance that assets are safeguarded
against loss from unauthorized use or disposition, and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of financial schedules in
accordance with accounting principles prescribed by the National Science Foundation. Because of
inherent limitations in any internal control, errors or irregularities may nevertheless occur and may not be

                                                     7
detected. Also, projection of any evaluation to future periods is subject to the risk that procedures may
become inadequate because of changes in conditions, or that the effectiveness of the design and
operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the period July 1,
2003 to September 30, 2004, we considered GSU’s internal control over financial reporting in order to
determine our auditing procedures for the purpose of expressing our opinion on the schedule and not to
provide an opinion on the internal control over financial reporting. Accordingly, we do not express such
an opinion. However, we noted certain matters involving the internal control over financial reporting and
its operation that we consider to be reportable conditions under standards established by the American
Institute of Certified Public Accountants. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal control over financial reporting,
that, in our judgment, could adversely affect GSU’s ability to record, process, summarize, and report
financial data consistent with the assertions of management in the financial schedule.

A material weakness is a reportable condition in which the design or operation of one or more of internal
control elements does not reduce, to a relatively low level, the risk that misstatements caused by error or
fraud in amounts that would be material in relation to the financial schedules being audited may occur and
not be detected within a timely period by employees in the normal course of performing their assigned
functions. Our consideration of the internal control over financial reporting would not necessarily disclose
all matters related to internal control over financial reporting that might be reportable conditions, and,
accordingly, would not necessarily disclose all reportable conditions that are also considered to be
material weaknesses.

We noted the following matters, involving the internal control over financial reporting and operations,
which we consider reportable conditions under standards established by the American Institute of
Certified Public Accountants. However, we do not believe that any of the reportable conditions are
material weaknesses.

Inadequate Subawardee Monitoring

Lack of Controls over Subawardee Costs Funded by NSF

Contrary to applicable Federal regulations and the NSF award terms and conditions, GSU did not
adequately monitor and accurately report subaward costs charged to the NSF award. GSU claimed costs
from xx subawards amounting to xxxxxxxx or xxx percent of the total costs charged to the award. This
occurred because GSU lacks adequate policies and procedures for a risk-based system to monitor and
report its subaward costs. As a result, we questioned $132,835 out of $1,608,524 selected for review as
indicated in the chart below. Questioned costs for one subawardee in particular, Morris Brown College,
exceeded xxx percent of the costs tested for that subawardee.

OMB Circular A-110, Subpart C, Section .51 (a), requires recipients to manage and monitor each project,
program and subaward. In addition, Subpart C, Section .21 (b)(1) requires accurate, current, and
complete disclosure of the financial results of each federally sponsored project or program. Moreover,
OMB Circular A-133, Subpart D, Section 400(d.3) requires an awardee to “monitor the activities of
subrecipients as necessary to ensure that federal awards are used for authorized purposes in compliance
with laws, regulations, and the provisions of contracts or grant agreements and that performance goals
are achieved.”

Subawardees bill the Center on a monthly basis. The Business Manager reviews the subaward invoices
to ensure that the amounts invoiced do not exceed the approved budget, then submits the invoices to
GSU for payment through the financial system. However, there are no policies or internal controls in place
to ensure the amounts on the invoices are accurate, allocable, allowable, and properly supported per
NSF and OMB grant requirements. GSU assumed that the invoices from the subawardees were
sufficient to support the costs claimed, and that an invoice signed by a fiscally-responsible person at the
subawardee allowed GSU to accept the claimed costs as valid and allowable.


                                                       8
Because GSU has no process in place for assessing subaward billing risks, or verifying the validity of
costs claimed by its subawardees and reviewing source documentation to support the costs, we
conducted additional testing of subawardee expenditures. We selected a sample of invoices from each
subawardee and requested the subawardees to submit source documentation supporting the amounts
claimed on the selected invoices. After extensive review of all the source documentation provided, we
noted that most of the costs claimed by six of the subawardees were properly supported. However, we
assessed one subawardee, Morris Brown College, as high risk in that more than xxxx of the xxxxxxxxx
claimed by Morris Brown, or $107,931, were improper costs, and were xxxx percent of the $131,285 we
reviewed. Of this questioned amount, $103,221 was for salaries and the related fringe benefits and
indirect costs for which either the supporting documentation did not clearly indicate which award should
be charged, the documentation indicated the costs should have been charged to a different award, or no
documentation was provided. The remaining $4,710 claimed was for indirect costs that Morris Brown
improperly applied to fringe benefits, contrary to its indirect cost rate agreement.

GSU’s failure to monitor and review subawardees’ invoices may lead to funds being used for purposes
other than those intended under the cooperative agreement (misuse) or defrauded, and reduces GSU’s
ability to efficiently and effectively manage and monitor NSF-funded expenditures and activities by
subawardees. This lack of oversight contributed to $132,835 in costs that could not be substantiated, as
indicated in the chart below.

                                                                                Reviewed    Questioned
   Subawardee                            Exceptions Noted                        Costs        Costs
Emory University       •   Supporting travel expense documentation was         $ 920,045     $ 7,093
                           not provided for one transaction, and a second
                           lacked proper approval or explanation.
                       •   Indirect costs were improperly applied to
                           participant support transactions.
Morris Brown College   •   Personnel effort reports were not provided for 41     131,285      107,931
                           transactions out of 117 tested; 10 transactions
                           were attributed to a different grant; and 14 were
                           missing the code indicating the charges
                           benefited the NSF grant.
                       •   Indirect costs were improperly applied to fringe
                           benefits, contrary to the rate agreement.
Morehouse College      •   Personnel effort reports incorrectly charged 25       117,341      14,029
                           percent effort to the NSF award for an associate
                           professor whose effort had already been
                           correctly charged to the NSF award.
Clarke Atlanta         •   No documentation was provided to support a             55,798       3,782
University                 consultant’s fees or that the consultant costs
                           benefited the NSF grant.
All Other              •   No exceptions noted.                                  384,055            0
Subawardees
                                                                       Total   $1,608,524   $132,835

Lack of Controls over Subawardee Cost Sharing Expenditures

Similarly, GSU also did not maintain adequate documentation to support cost sharing expenditures
claimed by its subawardees or require such documentation from its subawardees, contrary to Federal
regulations and NSF award terms and conditions.4 This occurred because GSU does not have adequate,
risk-based monitoring procedures in place to ensure that subawardee cost sharing expenditures are
accurate, allocable, allowable, and adequately documented. GSU accepted cost sharing from 4 of its
subawardees for approximately xxxx million in expenditures based solely on certifications from the

4
 This discussion only relates to cost sharing provided by the Center’s subawardees. It does not include
cost sharing contributed by GSU itself. For the discussion of GSU’s cost sharing, see pages 11 and 13.

                                                   9
subawardees. These certifications provide little to no detail on the nature or type of costs claimed and
are the only source documents maintained by GSU to support the amount claimed as cost sharing. As a
result, we questioned a total of $271,376 in subawardee cost sharing expenditures out of $1,266,196
selected for review, as indicated in the chart below.

NSF Grant General Conditions, Article 22, Section C, requires an awardee to maintain records of all
claimed project costs including both cost sharing and NSF direct-funded costs. OMB Circular A-110,
Subpart C, Section .23(a), prescribes the criteria and procedures for the allowability of cost sharing
expenditures and requires, among other things, that cost sharing meet the same cost principles and
documentation requirements as costs directly funded by NSF. In addition, OMB Circular A-110, Subpart
C, Section .51(a), requires awardees to manage and monitor subawards.

On an annual basis, GSU requires its subawardees to complete cost sharing certifications of their cost
sharing expenditures claimed to date. Using these certifications and its own cost sharing expenditure
information, GSU compiles an overall cost sharing certification that it submits to NSF. As of September
30, 2004, subawardees, in total, had provided xxxxxxxxxx of the xxxxxxxxxxx total cost sharing
expenditures claimed by GSU. However, these subawardee certifications are the only source
documentation maintained by GSU to support the subawardees’ amounts claimed as cost sharing. No
other detail listing or source documentation is submitted by the subawardees with their certifications to
support the cost sharing claimed. In addition, GSU has no process in place to verify the accuracy and
validity of the expenses claimed on the subawardee certifications. GSU relies solely on the subawardees’
certifications to ensure the cost sharing amounts it claims to NSF are accurate and properly documented.

Because GSU has no process in place for verifying the validity of cost sharing claimed by its
subawardees, we conducted additional testing of subawardee cost sharing. Based on our review of a
sample of cost sharing expenditures claimed by subawardees, we found that $271,376 or 21 percent of
the $1,266,196 claimed as cost sharing were inadequately supported by source documentation.

As a result of the lack of controls ensuring the accuracy and validity of cost sharing claimed by its
subawardees, GSU may be certifying to cost sharing expenditures for the NSF award that either may not
exist or are not allowable per federal and NSF regulations. In addition, this lack of subawardee oversight
could result in GSU not meeting its overall cost-sharing requirement by the end of the award period.

Consequently, out of xxxxxxxxxx in subawardee cost sharing selected for review, we questioned costs
totaling $271,376 as follows:

                                                                                Reviewed     Questioned
   Subawardee                            Exceptions Noted                        Costs          Costs
Emory University        •   Emory claimed 75 percent, or $225,341, of its      $1,187,605     $ 225,562
                            vivarium expenses as cost sharing, but provided
                            no documentation supporting the allocation to
                            the Center. Emory officials noted that the
                            Center’s use of the vivarium had been steadily
                            decreasing.
                        •   One transaction questioned included costs for
                            alcohol, an unallowable expense.
Georgia Institute of    •   Cost share amounts were based solely on                45,814         45,814
Technology                  budgeted amounts rather than actual
                            expenditures.
All Other               •   No exceptions noted.                                   32,777              0
Subawardees
                                                                       Total   $1,266,196      $271,376


Inadequate Controls Over Subawardee Consultant Costs - Additionally, we noted that one of the
Center’s subawardees, Emory University, did not have written procedures for selecting consultants, nor


                                                   10
did they have procedures in place to determine whether payments for consultant services were
reasonable. Our test work did not reveal any exceptions for costs exceeding the maximum consultant
rate specified by NSF grant regulations, but Emory was not in compliance with NSF regulations specifying
that written organizational standards be established prior to the hiring of consultants.

Recommendation No. 1

We recommend that NSF’s Directors of DACS and DGA instruct Georgia State University to develop and
implement written policies and procedures to assess and document each subawardee’s risk of claiming
non-allocable or non-allowable costs, including cost sharing expenditures. As part of that assessment,
GSU should ensure that subawardees have adequate policies and procedures for overseeing and
verifying propriety of subawardee expenditures. Based on the level of risk assessed, GSU should
perform periodic reviews of each subawardee’s invoices to ensure costs claimed are allowable, allocable,
and properly documented in accordance with NSF regulations, OMB Circulars A-110 and A-133, and any
other applicable OMB Circulars. In addition, these policies and procedures should include a process for
reviewing cost sharing expenditures claimed by subawardees for allowability and allocability prior to the
inclusion of the amounts in GSU’s annual cost sharing certification to NSF. These reviews should be of
sufficient scope and quality to allow GSU to provide reasonable assurance that all costs claimed are
accurate, allowable, and properly documented per NSF regulations and OMB Circulars.

Awardee Comments

GSU does not concur with this finding and asserts that the university’s oversight of subawardee cost
share expenditures is adequate and consistent with the current federal requirements outlined in OMB
Circular A-133. GSU has a two-tier process in place that encompasses both programmatic and fiscal
oversight. The Principal Investigator/department business manager reviews subawardee invoices to
affirm satisfactory performance as well as a review of cost versus budget. In addition, the university
requires subawardees certification of valid and allowable cost share expenditures and requests annual
audit letters from subawardees certifying completion of their annual A-133 audit and attesting that they
had no instances of material weaknesses and no findings applicable to the GSU award. If a subawardee
has a problem noted in an A-133 audit, our procedure includes a process for following up on the
corrective action plan to ensure that the subawardee has corrected the problem.

Although we believe our current system is comprehensive and cost-effective, GSU will consider the
auditor’s recommendation for future implementation of a more detailed risk-based system for monitoring
each subawardee’s risk of claiming non-allocable or non-allowable cost, including cost sharing
expenditures. However, presently we do not have the necessary resources to establish such an
expanded system, no is it a federal requirement.

Auditor’s Response

GSU, in its response, does not provide evidence of financial monitoring beyond that described in the
condition to the finding. In our review, we noted that the subawardees did not always respond timely to
the annual audit letters referred to in the comments and there was a lack of adequate follow-up by GSU.
Our testing of subawardee expenditures revealed several exceptions which indicate a lack of adequate
monitoring, and particularly noted Morris Brown College as high risk because it was unable to provide
invoices or other documentation to support most of its claimed costs. We acknowledge that GSU will
consider future implementation of a more detailed risk-based system for monitoring subawardee
expenditures. However, we continue to believe that during the audit period GSU did not have an
adequate process in place for assessing subaward billing risks, or verifying the validity of costs claimed
by its subawardees and reviewing source documentation to support the costs, and therefore, the finding
will remain as stated.




                                                    11
Other Compliance & Internal Control Weaknesses

Lack of Documentation of Effort/Inadequate Payroll Documentation

Direct Costs – For 17 payroll transactions out of a sample of xxxx valued at xxxxxxx, GSU could not
provide adequate documentation to substantiate payroll charges, contrary to federal regulations and NSF
award terms and conditions. Seven of the transactions lacked adequate source documentation and five
were transfers to the Center’s payroll account from other projects without explanation or source
documentation. The amount charged for three of the transactions did not agree with the source
documentation, and documentation for the remaining two transactions indicated the costs should be
charged to different projects. In another instance, one employee’s 100 percent salary allocation had not
been adjusted to reflect his actual time worked at the Center of 50 percent. This occurred because GSU
did not take adequate care to maintain the documentation, or investigate unexplained journal entries
transferring costs from other projects. As a result, we questioned $82,573 ($46,693 in salary costs and
$35,880 in associated fringe benefit and indirect costs).

Cost Sharing – We also questioned $3,336 in salary costs associated with 2 payroll transactions out of a
sample of xx cost sharing transactions valued at xxxxxxxxxx.5 In one transaction, the Center was
improperly charged for work done on a different grant. For the other transaction, the source
documentation that GSU provided indicated the person terminated employment prior to the date of the
transaction.

Payroll Expense Internal Controls - Additionally, we noted 51 out of the xxxx direct payroll cost
transactions and 6 cost sharing payroll transactions out of the xxx cost sharing transactions, for which
GSU was unable to provide Personnel Action Forms (PAF) that reflect the employees’ approved
estimated work effort for the Center. Further, we noted that at certain high-volume times, GSU provided
the Center with lists containing summer faculty and graduate assistant changes, rather than establishing
the employees in the payroll system through approved PAFs, as GSU’s policy requires. For many of the
employees, the lists included signatures authorizing the change similar to the PAF. However, we
identified 33 transactions involving payment for employees on these lists for whom GSU did not have the
proper authorizations and approvals. We did not question any specific costs due to these missing
Personnel Action Forms and proper authorizations because the approved timekeeping records
reasonably indicated that some level of effort benefited the Center.

OMB Circular A-21, Section J, Subsection 8.c, Paragraph (3) (c) states, “Reports will reasonably reflect
the activities for which employees are compensated by the institution. To confirm that the distribution of
activity represents a reasonable estimate of the work performed by the employee during the period, the
reports will be signed by the employee, principal investigator, or responsible official(s) using suitable
means of verification that the work was performed.” Likewise, NSF Grant General Conditions, Article 22,
Section C, requires an awardee to maintain records of all claimed project costs including both cost
sharing and costs to be paid NSF. OMB Circular A-110, Subpart C, Section .23(a), prescribes the criteria
and procedures for the allowability of cost sharing expenditures and requires, among other things, that
cost sharing meet the same cost principles as costs to be paid by NSF.

Although for the most part, GSU does have formal policies in place to govern the payroll process, the fact
that GSU could not locate the Personnel Action Forms or used non-approved alternative documentation
indicates that the formal policies and procedures are not being adequately followed to ensure that
documentation supporting payroll transactions is maintained as the policy requires. For those large-
volume, short duration Center transfers such as summer faculty and graduate assistant changes, GSU
needs to determine whether to incorporate its current practice into its policies and procedures and ensure
that proper authorizations and approvals are obtained. Without complete policies and procedures and a

5
 We sampled a total of 75 transactions that GSU claimed as cost sharing. The sample included transactions from
salaries, materials and supplies, and tuition waivers.

                                                       12
process for ensuring that the policies and procedures are followed, GSU is unable to verify that its
personnel are properly paid and that the amounts paid are properly charged to the NSF award as direct
costs or cost sharing.

Recommendation No. 2

We recommend that NSF’s Directors of DACS and DGA instruct Georgia State University to review and
adhere to its payroll policies and procedures and ensure that all required documentation, to include both
Personnel Action Forms and Personnel Effort Reports, be properly filed and maintained for all employees
charging salaries to the NSF award.

Awardee Comments

GSU partially concurs with this finding. Due to the decentralized administrative structure of the Human
Resources function at GSU, approved Summer Faculty and Graduate Research Assistant spreadsheets
were frequently used in lieu of HR Personnel Action Forms (PAFs) during peak periods of high-volume
transactions. This has been a long-standing practice at the University that will be incorporated into our
written policies and procedures.

GSU also wishes to clarify for the record the facts surrounding questioned cost of $46,693 in salary costs
and related fringes of $10,058, and the auditor’s statement concerning the “….one employee’s 100
percent salary allocation had not been adjusted to reflect his actual time worked at the Center of 50
percent.” The CBN project involves research and instructional related activities. As indicated in the letter,
the employee devoted 100% effort to the Center as documented by the Personnel Effort Report.

Auditor’s Response

Upon review of the letter included with the awardee comments, we will accept the 100% effort for the
employee in question and reduce the questioned costs by $31,200 salary expense plus the associated
fringe benefits and indirect costs. Questioned salary costs are now $15,493, plus $3,337 of associated
fringe benefits and $8,568 of indirect costs. The remaining awardee comments are responsive to the
finding and recommendation.

Inadequate Documentation of Non-payroll Direct Expenses and Cost Sharing

Similar to payroll expenses, GSU was not always able to provide documentation substantiating that non-
payroll and cost sharing charges had been properly authorized and incurred in support of the NSF award.

CFR Title 2, Part 215 (OMB Circular A-110), Subpart C, 215.21 (b) (7) states recipients’ financial
management systems shall provide for “Accounting records including cost accounting records that are
supported by source documentation.” Furthermore, OMB Circular A-21, Part C, section 2 states that for
costs to be allowable, they must be both reasonable and allocable.

        Travel Costs - Specific to travel expenses, OMB Circular A-21, Part J, Section 53 requires that
        any travel costs reimbursed by Federal grants be “consistent with those normally allowed in like
        circumstances in the institution’s non-federally sponsored activities.” GSU’s policy requires that
        international travel be pre-approved. For 1 travel transaction out of a sample of 8 valued at
        $7,173, GSU was unable to provide documentation to substantiate that international travel
        expenses had been properly approved prior to the trip. As a result, we questioned $2,154
        ($1,480 in travel costs and $674 in associated indirect costs).

        Other Direct Costs – GSU’s policy requires that purchases be pre-approved and certified when
        received. For 4 material/supply transactions out of a sample of 57, valued at $57,784, GSU was
        unable to provide documentation that purchases were properly authorized, or that the supplies
        had been received. For another material/supply transaction, GSU was unable to locate any


                                                     13
        documentation to support the charge. For 8 venture-grant (“Other”) transactions out of a sample
        of xxx valued at xxxxxxx, GSU was unable to provide documentation that the supplies charged to
        the grant had been received, and for 1 transaction, could not provide any documentation to
        support the charge to the grant. As a result we questioned a total of $5,947 in materials and
        supplies costs ($4,087 in materials and supplies costs and $1,860 in associated indirect costs).
        We also questioned a total of $6,531 in other costs ($4,489 in venture grant costs and $2,042 in
        associated indirect costs).

        Consulting Expenses - We noted one instance, out of a sample of two transactions, where GSU
        had approved a consulting invoice for payment, but was unable to provide the contract for the
        services to demonstrate that the costs were reasonable and incurred on behalf of the NSF award.
        For consulting services, the NSF Grant Policy Manual, Chapter VI, section 616.1 (a) states that
        the “adequacy of the contractual agreement for the service (e.g., description of the service,
        estimate of time required, rate of compensation and termination provisions),” is a factor in
        determining the allowability of costs. Additionally, GSU’s policy requires that contracts be entered
        into for services, and supporting documentation be maintained. As such, we questioned $9,821
        ($6,750 in consulting costs and $3,071 in associated indirect costs).

        Cost Sharing – For 2 material/supply transactions, out of a sample of xxx total cost sharing
        transactions, GSU was unable to provide documentation that the materials and supplies charges
        transferred to the Center from another project had been properly authorized as having been
        incurred for the benefit of the NSF award. As a result, we questioned $10,225 in materials and
        supplies costs.

GSU did not adequately follow its policies and procedures to ensure that it maintained the necessary
supporting documentation. As such, the lack of compliance with Federal standards for financial
management systems limits GSU’s ability to ensure travel costs and material and supplies charged to the
NSF award, either directly or claimed as cost sharing, are allowable, allocable, reasonable, and properly
supported per NSF regulations and OMB Circulars.

Recommendation No. 3

We recommend that NSF’s Directors of DACS and DGA instruct Georgia State University to review and
adhere to their policies and procedures and ensure that all required documentation is properly filed and
maintained for all expenses and cost sharing charged to the NSF award.

Awardee Comments

GSU partially concurs with this finding. Regarding the questioned Travel transaction, we provide a copy of
the GSU Travel Authorization that was given to the auditor during his visit. The document includes the
approval signature of Dr. Elliot Albers, Principal Investigator for the NSF award, thus indicating the
appropriateness of the travel expenses for the NSF award and prior approval of the trip.

The questioned Other Direct Costs expenses of $8,576 included $5,658 of P-Card (Purchase Card)
transactions. Therefore, purchase orders were not required nor are invoices stamped received.
According to GSU P-Card policy, which we complied with for the $5,658 of expenses, all P-Card
transactions must be recorded on a monthly activity log and any applicable receipts must be maintained
with the log. The monthly statement must be reconciled with the monthly activity log within thirty (30)
calendar days of receipt of the bank statement and approved (signed off) by cardholder’s supervisor or
designee. The reconciled activity logs and receipts must be submitted to the P-Card Administrator within
30 days of the end of each calendar quarter. We concur that documentation for the remaining two
transactions (journal entries totaling xxxxxx) were not provided and accept the auditor’s recommendation
that we review and adhere to GSU policies and procedures to ensure filing and maintaining of required
documentation.




                                                    14
With respect to the questioned Consulting Expense of xxxxxx, documentation was maintained at Emory
University, the original party to the contract. Emory could not pay the final invoice on the consulting
agreement after transfer of the award to GSU; however, it was a legitimate obligation of the NSF funded
project. As explained in our response to Item 4, this was one of the difficulties resulting from the unusual
nature of this award transfer.

Finally, the auditor did not provide any information on the questioned costs of $10,225 in Cost-Sharing in
the initial schedule last July nor in the current report. Therefore, GSU requests removal of this item from
the report.

Auditor’s Response

We have reviewed GSU’s documentation supporting the travel transaction, and accept $1,105 that was
transferred to Stipends during FY 2004 and used for the individual’s graduate allowance. The remaining
$375, which is the amount in excess of the authorization, was to be reclassified to Stipends during the
following year and therefore, remains a questioned cost at September 30, 2004.

Regarding Other Direct Costs, we received adequate documentation to accept the P-Card transactions of
xxxxxx, and xxxxxx in associated indirect costs. We continue to question $2,418 in material and supply
costs, $500 in venture grant costs, and $1,328 in associated indirect costs.

With respect to the questioned Consulting Expense of $6,750, this amount was questioned because
Emory University was also unable to provide a consulting agreement, and therefore, the questioned cost
will remain.

Regarding the questioned cost sharing of $10,225, the following information was requested from GSU:

Date        Proj./Grant   Account      Amount      Description                Comments
10/29/03    SKJF          7124100      $1,463      Supplies and materials     Need support for
                                                   transferred from           original purchase
                                                   BRSCR
None        SLLC          714990        8,764      Supplies and materials     Need support for
                                                   transferred from           original purchase
                                                   BRSCR
Total                                  $10,225

We have not received documentation supporting these costs, therefore, questioned costs remains
unchanged.


Pre-Award Charges Incurred in Advance of 90-day Limitation

Prior to the transfer of the award from Emory University to GSU, GSU and other subawardees incurred
expenses and charged these expenses to the new award without formally requesting or receiving
approval from NSF, as required by NSF’s grant conditions. Expenses in the amount of xxxxxxxx that
should have been claimed against the old cooperative agreement with Emory University were claimed
against the new cooperative agreement with GSU.

NSF Grant General Conditions, Article 3(a) states that “Grantees may approve pre-award costs incurred
within the ninety calendar-day period immediately preceding the effective date of the award. Requests for
approval of pre-award costs for periods greater than 90 calendar days must be submitted electronically
via the FastLane system. “

We did not question these costs because they were clearly incurred on behalf of the Center.
Nevertheless, because these costs were incurred more than 90 days prior to the date of GSU’s award,
GSU was required to formally request approval from NSF before claiming these costs. This approval was

                                                    15
not obtained because GSU did not have formal procedures in place that required compliance with the
NSF pre-award time specifications.

NSF award terms and conditions relating to pre-award charges are designed so that awardees can make
limited preparations in expectation of an award. These costs must be allowable and necessary for the
economical and effective conduct of the project. GSU’s failure to fully comply with NSF pre-award
requirements limits GSU’s ability to ensure costs claimed to the NSF award are allowable, allocable,
reasonable, and properly supported per NSF regulations and OMB Circulars.

Recommendation No. 4

We recommend that NSF’s Directors of DACS and DGA instruct Georgia State University to develop and
implement written policies and procedures to ensure that expenses incurred in advance of an award are
properly approved in accordance with pre-award policies in NSF regulations.

Awardee Comments

GSU partially concurs with this finding. While we acknowledge that GSU and subawardees incurred and
charged expenses to the new award prior to the effective date, we contend that such charges were
approved by the Principal Investigator, incurred with the full knowledge of NSF, and with the expectation
that NSF would transfer the award and execute the cooperative agreement with GSU effective November
1, 2002. NSF OIA and DGA officials discussed the requirements of the transfer and forwarded the
proposed Cooperative Agreement to GSU on December 18, 2002. GSU officials only received
notification on July 31, 2003 of the official start date of July 1, 2003. Clearly, not knowing the actual
effective date made it impossible for GSU to request NSF approval of pre-award costs beyond the 90-day
limitation. Contrary to the auditor’s statement that GSU did not have formal procedures in place that
required compliance with the NSF pre-award time specifications, GSU has had an institutional prior
approval system (IPAS) that facilitates compliance since 1990. GSU also contends that the difficulty
associated with the transfer was compounded by the fact that Emory University was still the official award
recipient at the time that NSF appointed xxxxxxxxxxxxx, a Georgia State University employee, as the
Principal Investigator. This arrangement made it difficult for GSU to administer the award since the
official PI authorized and approved the charges, yet the expenses could not be charged to the account of
the award recipient, Emory University. Although GSU had an established IPAS in place at the time of the
transfer, federal requirements on prior approvals do not address the unique situation of this NSF transfer.

Auditor’s Response

We acknowledge the difficulty of administering this transfer of the NSF award; however, because GSU
did not formally request or receive approval from NSF, the finding remains as stated.

We considered these internal control weaknesses in forming our opinion of whether Schedule A is
presented fairly in all material respects, in conformity with National Science Foundation policies and
procedures, and determined that this report does not affect our report dated July 1, 2005, on the financial
schedule.




                                                    16
This report is intended solely for the information and use of Georgia State University Research
Foundation, Inc.’s management, the National Science Foundation, the Office of Management and Budget,
and the Congress of the United States and is not intended to be and should not be used by anyone other
than these specified parties.




Conrad and Associates, L. L. P.
Irvine, California
July 1, 2005




                                                 17
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                 INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by Georgia State University Research Foundation, Inc. (GSU) to the
National Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) – Federal Share
of Net Disbursements for the NSF award listed below. In addition, we have also audited the amount of
cost sharing claimed on the award. The Federal Cash Transactions Reports, as presented in the
Schedule of Award Costs (Schedule A), are the responsibility of GSU’s management. Our responsibility
is to express an opinion on Schedule A, based on our audit.

                Award Number                        Award Period                      Audit Period
                IBN 0349042                      07/01/03 – 10/31/04               07/01/03 – 09/30/04

Except as discussed in the following paragraph, we conducted our audit in accordance with auditing
standards generally accepted in the United States of America, the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States of
America, and the National Science Foundation Audit Guide (November 2003). Those standards and the
National Science Foundation Audit Guide require that we plan and perform the audit to obtain reasonable
assurance that the financial schedules are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial schedule presentation. We believe our audit provides a reasonable
basis for our opinion.

The accompanying financial schedules were prepared in conformity with the requirements of the National
Science Foundation Audit Guide as described in the Notes to the Schedules, and are not intended to be a
complete presentation of financial position in conformity with accounting principles generally accepted in
the United States of America.

Schedule B identifies $174,846 of NSF-funded and $284,938 of cost sharing costs that are questioned as
to their allowability under the award agreements. Questioned costs are (1) costs for which there is
documentation that the recorded costs were expended in violation of the law, regulations or specific
conditions of the award, (2) costs that require additional support by the awardee, or (3) costs that require
interpretation of allowability by the National Science Foundation – Division of Acquisition and Cost
Support (DACS). The National Science Foundation will make the final determination regarding whether
such costs are allowable. The ultimate outcome of this determination cannot presently be determined.
Accordingly, no adjustment has been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for the questioned costs identified in Schedule B, the financial schedule referred to
above presents fairly, in all material respects, the costs claimed on the Federal Cash Transactions
Reports as presented in the Schedule of Award Costs (Schedule A), for the period of July 1, 2003 to
September 30, 2004, in conformity with the National Science Foundation Audit Guide, NSF Grant Policy
Manual, terms and conditions of the NSF award and on the basis of accounting described in the Notes to
the Financial Schedules.




                                                    18
In accordance with Government Auditing Standards and the provisions of the National Science
Foundation Audit Guide, we have also issued a report dated July 1, 2005 on tests of GSU’s compliance
with certain provisions of laws, regulations, the provisions of the National Science Foundation Audit
Guide, and the award applicable to GSU and conditions and our consideration of GSU’s internal control
over financial reporting. The purpose of that report is to describe the scope of our testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. That report is an
integral part of an audit performed in accordance with Government Auditing Standards and should be
read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of GSU’s management, the National Science
Foundation, the Office of Management and Budget, and the Congress of the United States and is not
intended to be and should not be used by anyone other than these specified parties.




Conrad and Associates, L.L.P.
Irvine, California
July 1, 2005




                                                  19
                                                                                             Schedule A

                            Georgia State University Research Foundation, Inc
                            National Science Foundation Award No. IBN – 0349042
                                           Schedule of Award Costs
                                  From July 1, 2003 to September 30, 2004
                                                   Interim




                                              (A)
                              Approved      Claimed         Tested        Questioned         Schedule
      Cost Category            Budget        Costs          Costs           Costs            Reference

Direct costs:
 Salaries and wages          Xxxxxxxxxx   xxxxxxxxxx       Xxxxxxxxxx           $15,493              B-1
 Fringe benefits             Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx             3,337              B-2
 Equipment                   Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx              -
 Travel – Domestic           Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx                375             B-3
 Participant Support         Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx              -

Other direct costs:
 Materials and supplies      Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx             2,418              B-3
 Publication costs           Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx              -
 Consultant services         Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx             6,750              B-3
 Subawards                   Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx           132,835              B-4
 Other                       Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx                500             B-3

       Total direct costs    Xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx         $161,708

Indirect costs               xxxxxxxxxx   Xxxxxxxxxx       Xxxxxxxxxx               13,138           B-5

       TOTAL                 $8,949,568   $5,915,793       $2,441,337         $174,846


Cost Sharing:
 Subawards                                xxxxxxxxxx       Xxxxxxxxxx         $ 271,376
 GSU                                      Xxxxxxxxxx       xxxxxxxxxx            13,562

       TOTAL                 $4,680,264   $4,627,502       $2,090,366         $ 284,938



(A)    The total claimed costs agree with the total expenditures reported by GSU on the Federal Cash
       Transactions Report - Federal Share of Net Disbursements as of the quarter ending September 30,
       2004. Claimed costs reported above are taken directly from the awardee’s books of accounts.




                               See accompanying notes to this financial schedule.

                                                      20
                                                                                                       Schedule B
                            Georgia State University Research Foundation, Inc.
                            National Science Foundation Award No. IBN – 0349042
                                        Schedule of Questioned Costs
                                  From July 1, 2003 to September 30, 2004



Note B-1       Salaries and Wages

               During our review of salaries and wages, we noted exceptions for lack of adequate support
               resulting in questioned costs as follows:

                                     Questioned
     Date           Job Title         Amount                             Comments
    11/26/03   Research Scientist      $1,625.00   Retroactive adj. to DLN39 6 but the PER was not adjusted
    07/15/03   Assistant Professor      4,999.67   Need PAF and payroll register
    11/26/03   Temp/Hourly                600.00   There were no timesheets for the pay period.
               Graduate Research
    06/30/03   Assistant                  633.33   There was no explanation for the transfer.
               Graduate Research
    06/30/03   Assistant                  633.33   Need transfer register and an explanation for the transfer.
               Graduate Research
    11/26/03   Assistant                  633.33   Need transfer register and an explanation for the transfer.
               Graduate Research
    11/26/03   Assistant                  633.33   Need transfer register and an explanation for the transfer.
               Graduate Research
    11/26/03   Assistant                  633.33   Need transfer register and an explanation for the transfer.
               Graduate Research
    11/26/03   Assistant III              252.10   PAF is xxxx, PER is xxxxx; Need PER for Fall 03
               Graduate Research                   PER doesn’t agree with PAF. PAF is 64%, PER is
    04/30/04   Assistant                  450.45    xxxxx
               Graduate Research
    04/30/04   Assistant                  312.52   PAF is $750, PER is xxxxx which would be xxxxx.
               Graduate Research
    09/30/04   Assistant                  333.33   Personnel action form reflects should be 100% BSCIR.
               Graduate Research
    09/30/04   Assistant                  333.33   Personnel action form reflects 100% BIOLR.
                                                   There was no PAF for this period. Need PER for total
    08/30/04   Assistant Professor      2,500.33   activity
               Temp Student
    04/09/04   Assistant                  460.00   Need PAF and payroll register.
               Temp Student
    04/09/04   Assistant                  180.00   Need PAF and payroll register.
               Temp Student
    04/09/04   Assistant                  280.00   Need PAF and payroll register.

               Total                 $15,493.38




6
    DLN39 is GSU’s accounting code for the NSF award.

                                                        21
Note B-2           Fringe Benefits

                   As a result of questioning salaries and wages (Note B-1 and B-2), we have also
                   questioned the corresponding amount of fringe benefit costs. Questioned fringe benefits
                   cost is calculated as follows:

                   Questioned salary                                                     $15,494
                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                            xxxxxxxxx
                   Questioned fringe benefit                                            $   3,337


Note B-3           Non Payroll Expenditures

                   In our review of the cost categories other than payroll, we noted several transactions that
                   were not properly supported with documentation. We question these transactions as
                   follows:

                                                               Questioned
            Date                     Vendor/Payee               Amount                Comments
Travel
                                                                             Need adequate supporting
       06/07/04                Employee                            $375.35   documentation.
Materials and Supplies
                                                                             Need documentation for the
       11/14/03                J/E                                2,418.13   transfer
Consulting
                               Institute for Biomedical
       08/01/03                Philosophy                         6,750.00   No contract provided.
Other Direct Costs
                                                                             Only journal entry provided.
                                                                             Need a worksheet order,
                                                                             actual invoice, and request
       01/06/04                John Early                           500.00   for payment forms.
Total Questioned
         Costs                                                  $10,043.48

Note B-4           Subaward Costs

                   We reviewed a sample totaling over 50% of the costs submitted to GSU for
                   reimbursement by each of the subcontractors. We noted several exceptions which we
                   have documented below by subcontractor, and by cost category.

                                                               Questioned
        Date                            Payee                   Amount               Comments
Emory University
Travel
                                                                             No supporting documentation
                                Aramark Ed                        $855.60    provided

           07/18/03             Blimpie's Subs                     125.50    No approval & purpose.

Subtotal Travel                                                   $981.10


                                                          22
Indirect Costs
                                                                   Indirect cost on participant
                                                       $5,601.78   support classified as travel
                                                                   Indirect cost on questioned direct
                                                         510.17    costs at xxxx

Subtotal Indirect Costs                                $6,111.95
  Total Emory
University                                             $7,093.05

Morris Brown College
Salaries and Wages
                          Post Doc Research                        There was no personnel effort
          01/30/03        Associates                    $554.80    report.
                                                                   Date of personnel action form
          02/15/03        Grant Coordinator              240.00    does not show DNL39 grant.
                          Post Doc Research                        There was no personnel effort
          02/15/03        Associates                     554.80    report.
                                                                   There was no personnel effort
          02/28/03        UG Research Assistant         1,287.00   report.
                                                                   Date of PER does not show DLN
          02/28/03        Grant Coordinator              456.00    39 grant.
                                                                   Timesheet shows that time was
          02/28/03        UG Research Assistant          189.00    attributed to NIDA grant.
                          Post Doc Research                        There was no personnel effort
          02/28/03        Associates                     554.80    report.
                          Post Doc Research                        There was no personnel effort
          02/28/03        Associates                     554.80    report.
                                                                   Date of personnel action form
          03/14/03        Grant Coordinator              708.00    does not show DNL39 grant.
                                                                   Timesheet shows that time was
          03/14/03        UG Research Assistant          207.00    attributed to NIDA grant.
                                                                   Date of personnel action form
          03/30/03        Grant Coordinator              576.00    does not show DNL39 grant.
                                                                   Timesheet shows that time was
          03/30/03        UG Research Assistant          182.70    attributed to NIDA grant.
                          Post Doc Research                        There was no personnel effort
          03/30/03        Associates                     554.80    report.
                                                                   Date of personnel action form
          04/15/03        Grant Coordinator              660.00    does not show DNL39 grant.
                                                                   Timesheet shows that time was
          04/15/03        UG Research Assistant          261.00    attributed to NIDA grant.
                          Post Doc Research                        There was no personnel effort
          04/15/03        Associates                     554.80    report.
                                                                   Date of personnel action form
          04/30/03        Grant Coordinator              768.00    does not show DNL39 grant.
                                                                   Timesheet shows that time was
          04/30/03        UG Research Assistant          693.00    attributed to NIDA grant.
                                                                   Timesheet shows that time was
          04/30/03        Research Assistant             232.00    attributed to NIDA grant.
                          Post Doc Research                        There was no personnel effort
          04/30/03        Associates                     554.80    report.

                          Post Doc Research                        There was no personnel effort
          05/15/03        Associates                     554.80    report.

                                                  23
                                                   Date of personnel action form
05/15/03   Grant Coordinator             900.00    does not show DNL39 grant.
                                                   Timesheet shows that time was
05/15/03   UG Research Assistant         513.00    attributed to NIDA grant.
           Post Doc Research                       There was no personnel effort
05/30/03   Associates                    554.80    report.
                                                   Date of personnel action form
05/30/03   Grant Coordinator             927.60    does not show DNL39 grant.
                                                   Timesheet shows that time was
05/30/03   UG Research Assistant         533.70    attributed to NIDA grant.
                                                   Timesheet shows that time was
05/30/03   Research Assistant            640.00    attributed to NIDA grant.
           Post Doc Research                       There was no personnel effort
06/15/03   Associates                    554.80    report.
                                                   Date of personnel action form
06/15/03   Grant Coordinator            1,248.00   does not show DNL39 grant.
                                                   Timesheet shows that time was
06/15/03   UG Research Assistant         360.00    attributed to NIDA grant.
           Post Doc Research                       There was no personnel effort
06/30/03   Associates                    554.80    report.
                                                   There was no personnel effort
06/30/03   Assistant Professor          1,297.50   report.
                                                   There was no personnel effort
06/30/03   Professor                    1,834.20   report.
                                                   Date of personnel action form
06/30/03   Grant Coordinator             876.00    does not show DNL39 grant.
                                                   Date of personnel action form
07/15/03   Grant Coordinator             864.00    does not show DNL39 grant.
           Post Doc Research                       There was no personnel effort
07/30/03   Associates                    554.80    report.
                                                   There was no personnel effort
07/30/03   Professor                    1,834.20   report.
                                                   Date of personnel action form
07/30/03   Grant Coordinator             948.00    does not show DNL39 grant.
           Post Doc Research                       There was no personnel effort
08/15/03   Associates                    554.80    report.
                                                   There was no personnel effort
08/15/03   Assistant Professor          2,595.00   report.
                                                   There was no personnel effort
08/15/03   Professor                    3,668.40   report.
                                                   Date of personnel action form
08/15/03   Grant Coordinator             960.00    does not show DNL39 grant.
           Post Doc Research                       There was no personnel effort
08/30/03   Associates                    554.80    report.
                                                   There was no personnel effort
08/30/03   Assistant Professor          2,595.00   report.
                                                   There was no personnel effort
08/30/03   Assistant Professor          1,297.50   report.
                                                   There was no personnel effort
08/30/03   Professor                    1,834.20   report.
                                                   Date of personnel action form
08/30/03   Grant Coordinator            1,128.00   does not show DNL39 grant.

           Post Doc Research                       There was no personnel effort
09/15/03   Associates                    554.80    report.

                                   24
                                                                   There was no personnel effort
        09/15/03          Assistant Professor           1,250.00   report.
                                                                   There was no personnel effort
        09/15/03          Professor                     1,746.14   report.
                          Post Doc Research                        There was no personnel effort
        09/30/03          Associates                     554.80    report.
                                                                   There was no personnel effort
        09/30/03          Assistant Professor           1,250.00   report.
                                                                   There was no personnel effort
        09/30/03          Professor                     1,746.14   report.
                                                                   There was no personnel effort
        11/15/03          Assistant Professor           1,107.50   report.
                                                                   There was no personnel effort
        11/26/03          Assistant Professor           1,107.50   report.
                                                                   There was no personnel effort
        12/15/03          Assistant Professor           1,107.50   report.
                                                                   There was no personnel effort
        12/30/03          Assistant Professor           1,107.50   report.
                                                                   There was no personnel effort
        01/15/04          Assistant Professor           1,107.50   report.
                                                                   There was no personnel effort
        01/30/04          Professor                     1,391.68   report.
                                                                   There was no personnel effort
        02/15/04          Professor                     1,391.68   report.
                                                                   There was no personnel effort
        02/29/04          Professor                     1,391.68   report.
                                                                   There was no personnel effort
        03/15/04          Professor                     1,391.68   report.
                                                                   There was no personnel effort
        03/31/04          Professor                     1,391.68   report.
                                                                   There was no personnel effort
        04/15/04          Professor                     1,391.68   report.
                                                                   There was no personnel effort
        04/30/04          Professor                     1,391.68   report.
Subtotal Salaries and
Wages                                                 $63,462.34
                                                                   Fringe benefits on questioned
Fringe Benefits                                        $4,854.87   salaries at xxxxx
Indirect Cost
                                                                   Base used for computing indirect
                                                                   costs included fringe benefits
                                                                   instead of only salaries and
                                                       $4,709.98   wages.
                                                                   Indirect cost on questioned direct
                                                       34,904.29   salaries at xxxx.

Subtotal Indirect Costs                               $39,614.27
Total Morris Brown
College                                              $107,931.48




                                                25
Clark Atlanta University

Consultant Services
                                                                        Unable to determine daily rate.
                             Lord, Aeck, & Sergent,                     Also, this type of expenditure is
         05/29/03            Inc.                           $2,710.56   not included in the budget.
Indirect Cost
                                                                        Indirect cost on questioned direct
                                                             1,070.67   costs at xxxxx
Total Clark Atlanta
University                                                  $3,781.23

Morehouse College
Salaries and Wages
         02/27/03            Associate Professor            $1,323.83   Effort was 0%, charged as xxxx
         03/28/03            Associate Professor             1,323.83   Effort was 0%, charged as xxxx
         04/29/03            Associate Professor             1,323.83   Effort was 0%, charged as xxxx
         05/29/03            Associate Professor             1,323.83   Effort was 0%, charged as xxxx
         06/27/03            Associate Professor             1,323.83   Effort was 0%, charged as xxxx

           07/30/03          Associate Professor             1,323.83   Effort was 0%, charged as xxxx

           08/28/03          Associate Professor             1,323.83   Effort was 0%, charged as xxxx

           09/29/03          Associate Professor             1,323.83   Effort was 0%, charged as xxxx

         10/30/03            Associate Professor             1,323.83   Effort was 0%, charged as xxxx
Subtotal Salaries and
Wages                                                      $11,914.47
                                                                        Fringe benefits on questioned
Fringe Benefits                                             $2,114.82   salaries at xxxxxx
Total Morehouse
College                                                    $14,029.29

Grand Total of
Subaward Questioned
Costs                                                      132,835.05



Note B-5         Indirect Costs

                 We have computed questioned indirect costs on the questioned direct costs that are in
                 the cost base for computing indirect costs for GSU as follows:

                 Questioned Direct Costs:
                 Salaries and Wages                                         xxxxxxxx
                 Fringe Benefits                                            xxxxxxxx
                 Non-Payroll Costs                                          xxxxxxxx
                 Total                                                      xxxxxxxx
                 Indirect cost rate                                         xxxxxxx
                 Total                                                         13,138


                                                      26
                                                                                             Schedule C

                    Georgia State University Research Foundation, Inc.
                   Summary Schedules of Awards Audited and Audit Results
                         From July 1, 2003 to September 30, 2004




Summary of Awards Audited

       Award Number                     Award Period                        Audit Period
        IBN-0349042                  07/01/03– 10/31/04                 07/01/03 – 09/30/04


       Award Number                   Type of Award                      Award Description
        IBN-0349042                Cooperative Agreement                Center for Behavioral
                                                                           Neuroscience


Summary of Questioned and Unresolved Costs by Award

                          Award         Claimed         Questioned             Unresolved
 NSF Award Number         Budget         Costs            Costs                  Costs
IBN-0349042             $8,949,568     $5,915,793        $174,846                  -


Summary of Questioned Cost by Explanation

                                   Questioned        Internal Control
           Condition               Cost Amount         Weaknesses            Non-Compliance
Inadequate Internal Controls for
Oversight of the Award               $174,846           $174,846                     -


Summary of Internal Control Weaknesses and Non-Compliance Issues

                                           Non-Compliance                  Material, Reportable
             Condition                    or Internal Control?                 or Other?
Inadequate Internal Controls for
Oversight of the Award                      Internal Control                    Reportable




                                                27
                        Georgia State University Research Foundation, Inc.
                                   Notes to Financial Schedules
                             From July 1, 2003 to September 30, 2004




Note 1:   Summary of Significant Accounting Policies

          Accounting Basis

          The accompanying financial schedules have been prepared in conformity with National Science
          Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to
          NSF and information obtained from the accounting records maintained for the grant award by
          GSU. The basis of accounting utilized in preparation of these reports differs from generally
          accepted accounting principles. The following information summarizes these differences:

          A.   Equity

               Under the terms of the award, all funds not expended according to the award agreement
               and budget at the end of the award period are to be returned to NSF. Therefore, the
               awardee does not maintain any equity in the award and any excess cash received from
               NSF over final expenditures is due back to NSF.

          B.   Equipment

               Equipment purchased with NSF funds is charged to expense in the period during which it
               is purchased instead of being recognized as an asset and depreciated over its useful life.
               As a result, the expenses reflected in the statement of award costs include the cost of
               equipment purchased during the period rather than a provision for depreciation.

               Except for awards with nonstandard terms and conditions, title to equipment under NSF
               awards vests in the recipient, for use in the project or program for which it was acquired,
               as long as it is needed. The recipient may not encumber the property without approval of
               the federal awarding agency, but may use the equipment for its other federally sponsored
               activities, when it is no longer needed for the original project.

          C.   Inventory

               Minor materials and supplies are charged to expense during the period of purchase. As a
               result, no inventory is recognized for these items in the financial schedules.




                                                   28
                            Georgia State University Research Foundation, Inc.
                                       Notes to Financial Schedules
                                 From July 1, 2003 to September 30, 2004




Note 2:    NSF Cost Sharing and Matching

           The following represents the cost share requirements and actual cost share as of September
           30, 2004:
                                                                      Actual              Actual
                     Cost           Actual Cost       Unallowable    Allowable          Cost Share

                    Share             Share             Cost           Cost            Over/(Under)
                   Required          Claimed            Share          Share            Required

Award No. IBN-0349042

Year 1           $2,219,045         $1,962,369    $ 129,910         $1,832,459      $ (386,586)
Year 2            2,461,219          2,665,133      155,028          2,510,105          48,886

Total            $4,680,264         $4,627,502        $284,938      $4,342,564      $ (337,700)




          * The fact that the allowable cost share is under the cost share required does not result in
          questioned costs because GSU is under spent on their NSF award by $3,033,775 at September
          30, 2004.



Note 3: Indirect Cost Rates

         Award Number            Indirect Cost Rate                         Base
          IBN-0349042                  xxxxxxx                      Modified Direct Costs




                                                      29
APPENDIX A – AWARDEE’S COMMENTS TO REPORT
